                      United States Department of the Interior

                                       Office of Inspector General
                                            Western Region
                                                Federal Building
                                         2800 Cottage Way, Suite E-2712
                                           Sacramento, California 95825


                                                          Report No. W-VS-MOA-0002-2006
                                                                        September 14, 2006

Memorandum

To:           Assistant Secretary for Policy, Management and Budget
                 (Attention: Associate Director for Finance, Policy, and Operations)
              Director, National Park Service
              Director, Bureau of Land Management

From:         Michael P. Colombo
              Regional Audit Manager

Subject:      Verification Review of Six Recommendations from our August 2002 Audit
              Report Recreational Fee Demonstration Program, National Park Service and
              Bureau of Land Management (No. 2002-I-0045)

       The Office of Inspector General (OIG) has completed a verification review of the six
recommendations presented in the subject audit report. The objective of the review was to
determine whether the recommendations were implemented and closed, as reported to the
OIG and to the Office of Financial Management, Office of Policy, Management and Budget.

Background

       Our August 2002 audit report Recreational Fee Demonstration Program, National
Park Service and Bureau of Land Management (No. 2002-I-0045) made six
recommendations to the National Park Service (NPS) on the management of the Recreational
Fee Demonstration program. Two of the six recommendations were also directed to the
Bureau of Land Management (BLM).

        In a May 30, 2002 response to the draft of the subject report, BLM concurred with
Recommendations 3 and 4. Based on this response, we considered the two recommendations
to be resolved and implemented. In a June 6, 2002 response, NPS concurred with the six
recommendations. However, we determined that NPS did not provide the information
necessary to consider the recommendations resolved. Accordingly, in a November 6, 2002
response, NPS provided additional information related to plans of action, target dates, and
officials responsible for implementing the recommendations. On February 20, 2003, we
determined Recommendation 5 to be resolved and implemented and referred
Recommendations 1, 2, 3, 4, and 6 to the Office of Financial Management for tracking of
implementation. In its October 12, 2005 memorandum to the OIG, the Office of Financial
Management reported that Recommendations 1, 3, 4 and 6 were sufficiently satisfied and
therefore closed.

Scope and Methodology

       The scope of this review was limited to determining whether NPS and BLM took
adequate action to implement the recommendations. To accomplish our objective, we
reviewed the supporting documentation that NPS and BLM officials provided to close the
recommendations. We also interviewed personnel within NPS and BLM Headquarters,
regional, and field offices or parks to gather additional information on the actions taken to
implement the recommendations.

       We did not perform any site visits or conduct any detailed audit fieldwork to
determine whether the underlying deficiencies that were initially identified have actually
been corrected. As a result, this review was not conducted in accordance with the
Government Auditing Standards issued by the Comptroller General of the United States.

                                     Results of Review
        Before addressing the results of the verification review, we note that the Recreational
Fee Demonstration program legislation in place during our audit was replaced by the Federal
Lands Recreation Enhancement Act, signed into law on December 8, 2004. The new Act,
which covers a 10-year period, provides for a nationally consistent interagency program,
additional improvements to visitor services, a new national pass for use across interagency
federal recreation sites and services, and more public involvement in the program. While the
legislating Act has changed, the recreational fee program still exists, and we believe the
recommendations made in our report remain valid.

       Our verification review found that BLM implemented Recommendations 3 and 4 and
that NPS implemented Recommendations 3 and 5, but did not take sufficient action to
implement Recommendations 1, 2, 4, and 6. The status of the recommendations is
summarized in the Appendix.

Recommendation 1 (NPS): “Develop strategies and take action to reduce the effect of
obstacles to timely completion of Recreational Fee Demo projects.”

       In its November 6, 2002 response, NPS stated that it requested an increase of
$10 million in fiscal year 2003 budget justifications for “Regional Facility Project Support”
and that it would modify NPS policy to allow high revenue parks to use revenues to hire
temporary staff for project management. Additionally, NPS would institute monthly
conference calls with park and regional staff and the Deputy Director. NPS stated that
concerns were being identified and coordinated among offices and dealt with in a timely
manner.




                                               2
        In its October 12, 2005 memorandum to OIG, the Office of Financial Management
reported that for Recommendation 1, NPS had completed the following actions: provided
explicit guidance for the approval process; approved hiring of project management staff;
implemented the change request process, cost estimating software, and a requirement that
each park complete an annual Comprehensive Plan; committed to allocating revenues by the
15th of each month; and established a Banking Officer position at the NPS Accounting
Office.

         We obtained copies of various documents and information detailing the strategies and
actions taken by NPS in its effort to remove obstacles to timely completion of fee projects.
We verified NPS efforts to address litigation, cost increases, and timely allocation of fee
program funds and believe these measures will aid in reducing obstacles. However, NPS has
not implemented all of the tasks it reported. Specifically, NPS has not yet implemented its
plan to introduce a new approval process, nor has it developed the staffing tools to aid in
determining appropriate project management staffing levels. Additionally, it has not
remedied the banking before obligating problem highlighted in our report. NPS stated the
problem no longer exists at any park, but did not present evidence to show that the problem
could not occur again in the future. Because these measures were not implemented, we have
concluded that NPS had not taken sufficient actions to implement Recommendation 1 and
that it should be reinstated and classified as not implemented.

Recommendation 2 (NPS): “Amend the NPS Strategic Plan to include a Fee Demo
program accomplishment goal either as a separate goal or as part of a joint goal for
similar NPS programs.”

        In its November 6, 2002 response, NPS stated it believed project management,
including project completion, was contained in Fiscal Year 2002 Strategic Plan Mission Goal
IVa. Additionally, a fee project management goal would be developed for the Fiscal Year
2004 – Fiscal Year 2008 Strategic Plan. NPS stated it would develop the technical guidance
to verify and validate data in the Project Management Information System (PMIS).

       In its August 23, 2004 memorandum to NPS, the Office of Financial Management
reported that for Recommendation 2, NPS had participated in an Interagency Fee Council
meeting, which agreed to assemble an interagency work group to establish consistent
evaluation guidelines and performance measures for Fee Demo projects that would integrate
with goals of the Government Performance and Results Act (GPRA).

        We obtained copies of various documents and information that substantiated NPS’s
objective and goal setting activities for managing its recreation fee projects. We reviewed
documents, including the Fiscal Year 2002 Strategic Plan goal and the Director’s Legacy
Goals submitted by NPS. Although NPS has taken positive steps in managing recreation fee
projects, NPS has not moved toward successful completion of fee projects by establishing a
project completion goal.

     We have concluded that NPS had not taken sufficient actions to implement
Recommendation 2 and that it should be reinstated and classified as not implemented.



                                              3
Recommendation 3 (NPS and BLM): “Establish clearly defined and measurable Fee
Demo Program goals and objectives, develop related performance accountability
standards for managers, ensure current and accurate program data, and effectively
monitor program accomplishments.”

                                            NPS
        In its November 6, 2002 response, NPS stated it would require managers to meet
GPRA goal requirements. NPS also stated it would work with a PMIS task force to update
the database and provide improvements, including enhancement of the accomplishment
tracking module, to ensure current and accurate program data and monitor program
accomplishments.

        In its October 12, 2005 memorandum to the OIG, the Office of Financial
Management reported that for Recommendation 3, NPS had developed fee program work
plans, which incorporated NPS Fee Study (McKinsey Report) objectives; hired an
implementation manager; and created an advisory board. NPS stated it had consulted senior
managers about developing specific fee program performance standards for local managers.
NPS reported that it participates in the Interagency Fee Council work group, which works
with other agencies to develop and implement fee program goals. NPS also stated it had
implemented a comprehensive plan that included PMIS data correction, tracking, and
completion reporting functions.

        We obtained copies of various documents and information supporting NPS efforts to
formulate recreation fee performance measures, improve PMIS data accuracy, and hire a
coordinator to implement fee program recommendations made by a private consulting firm.
We also verified NPS involvement in the Interagency Fee Council and the formulation and
actions of work group committees.

     We have concluded that NPS has taken action sufficient to consider
Recommendation 3 implemented and closed.

                                              BLM
        In its May 30, 2002 response to the draft report, BLM stated it had developed a
comprehensive formal evaluation process to assess adherence to the criteria in the Fee Demo
program legislation, as well as to our findings, and a process to share best practices with
other states and recreation fee sites. Additionally, BLM stated it would develop and
incorporate measurable performance standards into the evaluation process.

        We obtained a copy of BLM’s recreational fee demonstration management evaluation
guide, copies of evaluation reports that included a “best practices” section, and a copy of a
memorandum describing the inter-bureau recreation Fee Demo goals that were established.

     We have concluded that BLM has taken action sufficient to consider
Recommendation 3 implemented and closed.




                                              4
Recommendation 4 (NPS and BLM): “Require adherence to agency regulations to
(a) perform entrance and campground audits, internal reviews, and employee
background checks (NPS only) and (b) evaluate effectiveness of internal controls over
cash management activities. (BLM only)”

                                             NPS
        In its November 6, 2002 response, NPS stated that it was revising the comprehensive
Director’s Order 22 and Fee Program Reference Manual. NPS stated it would issue policy
memorandums on cost-of-collection requirements and that it would conduct inventories to
identify security and technology needs for fee collection facilities.

        In its October 12, 2005 memorandum to the OIG, the Office of Financial
Management reported that NPS had implemented this recommendation. NPS reported it had
obtained funding to hire staff to help expedite the processing of background investigations
for fee collectors. NPS also stated it had obtained funding to develop a comprehensive audit
program that would encompass site-specific audits related to entrance and campground
receipts, cash handling, budget and project expenditures, project accomplishment, PMIS data
base accuracy, and collection efficiencies. NPS reported that it had conducted audits in
select parks and that its regions had conducted cost-of-collection account reviews. NPS
reported that 186 personnel have attended fee supervisory workshops, which included an
audit module.

        During our review, we obtained documents pertaining to guidance, review,
comprehensive planning, and fee collection activities. We verified that NPS hired staff to
help expedite processing background investigations for fee collectors and issued policy
memorandums on cost-of-collection requirements. We also verified that some NPS regions
had conducted reviews at park sites. However, the regions were using their own regionally
developed audit program and not a comprehensive audit program developed at a national
level for all regions to follow. We also found that NPS has not yet finalized Director’s
Order 22, which is still being revised, as is the Fee Program Reference Manual.

        Because the comprehensive audit program, Director’s Order, and Reference Manual
are not yet complete, we concluded that Recommendation 4 should be reinstated and
classified as not implemented for NPS.

                                            BLM
        In its May 30, 2002 response, BLM stated it would issue Instruction Memorandums
(IM) to stress the importance of maintaining proper internal controls over cash management
activities. BLM also stated it would continue to request that state office fiscal and budget
teams perform occasional reviews of major fee sites.

       We obtained copies of an IM and Instruction Bulletin, which discussed fee program
evaluations and adherence to recreational fee collection policies, and verified the
memorandums were issued and received at BLM field offices. We verified that on-site
reviews conducted at BLM sites included review of cash management controls. We




                                              5
concluded that BLM had taken the corrective action envisioned by this recommendation and
had therefore implemented Recommendation 4.

Recommendation 5 (NPS): “Issue clarification for future NPS Program Project Call
guidelines regarding the use of Fee Demo revenues for ‘permanent subject-to-furlough’
employee salaries and for work on historical structures used for employee housing.”

       In its November 6, 2002 response, NPS stated that it would provide revised policy
guidance to clarify appropriate use of “permanent subject-to-furlough” employee salaries and
work on historical structures in the next Servicewide Comprehensive Call for Projects. In a
February 20, 2003 memorandum to the Director, Office of Financial Management, we
determined that this recommendation was resolved and implemented.

        We obtained the revised policy guidance on the Servicewide Comprehensive Call,
issued January 3, 2003, and verified that the guidance clarified the appropriate use of Fee
Demo revenues for “permanent subject-to-furlough” employee salaries and for work on
historical structures used for employee housing. We also verified that the NPS Headquarters
office sent the revised guidance to regions and parks and that the regions and parks received
it. As a result, we concluded that Recommendation 5 has been resolved and implemented.

Recommendation 6 (NPS): “Require periodic regional monitoring of Fee Demo project
expenditures, including charges to cost-of-collection accounts, to ensure that the
expenditures are in accordance with NPS guidelines.”

        In its November 6, 2002 response, NPS stated it was establishing a 4-year program to
implement a Servicewide comprehensive audit and program review process that included
actions at the park, regional, and Servicewide level. NPS would develop audit/program
review processes, with pilot testing in fiscal year 2003 and stratified implementation in fiscal
years 2003 through 2005.

        In its October 12, 2005 memorandum to the OIG, the Office of Financial
Management reported that NPS regional and Headquarters offices conducted extensive
reviews and approvals annually of itemized costs for all park cost-of-collection projects to
ensure adherence to policy guidelines. The Headquarters office issued a memorandum
requiring cost-of-collection project audits by regional budget offices to ensure that project
expenses meet policy guidelines and approved amounts. The office also issued a
memorandum on closeout procedures and consequences should the cost of collection projects
not meet policy requirements.

         We obtained copies of various documents and information from the Headquarters
office, regions, and parks pertaining to regional reviews and fee workshop, collection, and
comprehensive planning activities. We verified that NPS issued policy memorandums on the
cost-of-collection requirements. We also verified that two regions had conducted reviews at
parks using their own regionally developed audit review guidelines. NPS informed us it has
not yet developed a 4-year Servicewide comprehensive audit and program review process.




                                               6
       Because NPS did not develop a 4-year Servicewide comprehensive audit and program
review process, we have concluded that Recommendation 6 was not adequately implemented
and should therefore be reinstated and classified as not implemented.

Conclusion

       We informed BLM officials of the results of this review at an exit conference on
June 21, 2006. The officials agreed with the results of our verification review.

        We informed NPS officials of the results of this review at an exit conference on
July 10, 2006. NPS officials did not agree with all of the results of the verification review,
specifically with the banking before obligating problem cited in Recommendation 1 and the
lack of project completion goals in Recommendation 2. NPS stated it would address these
issues with the Office of Financial Management. NPS should provide the Office of Financial
Management with information on the actions it will perform to implement the
recommendations by October 16, 2006.

Responding to the Report

        We request that for NPS the Office of Financial Management reinstate
Recommendations 1, 2, 4, and 6 from the subject audit report as not implemented and inform
us of the actions to be taken for these recommendations.

       If you have any questions about this report, please contact me at (916) 978-5653.

cc: Focus Leader for Management Control and Audit Follow-up, Office of Financial
     Management, Office of the Assistant Secretary for Policy, Management and Budget
    Audit Liaison Officer, Department of the Interior
    Audit Liaison Officer, Assistant Secretary for Fish and Wildlife and Parks
    Audit Liaison Officer, National Park Service
    Audit Liaison Officer, Bureau of Land Management




                                              7
                                                                           Appendix
                 Status of Prior Audit Recommendations

Recommendation       Status                       Action Required
                                    NPS
      1           Not            We are requesting the Office of Financial
                  Implemented    Management, Office of Policy, Management and
                                 Budget, to reinstate the recommendation. The
                                 Director of NPS should provide a plan identifying
                                 actions to be taken, target dates for implementation,
                                 and titles of officials responsible for
                                 implementation
      2           Not            We are requesting the Office of Financial
                  Implemented    Management, Office of Policy, Management and
                                 Budget, to reinstate the recommendation. The
                                 Director of NPS should provide a plan identifying
                                 actions to be taken, target dates for implementation,
                                 and titles of officials responsible for
                                 implementation.
      3           Resolved and   No further action required.
                  Implemented
      4           Not            We are requesting the Office of Financial
                  Implemented    Management, Office of Policy, Management and
                                 Budget, to reinstate the recommendation. The
                                 Director of NPS should provide a plan identifying
                                 actions to be taken, target dates for implementation,
                                 and titles of officials responsible for
                                 implementation.
      5           Resolved and   No further action required.
                  Implemented
      6           Not            We are requesting the Office of Financial
                  Implemented    Management, Office of Policy, Management and
                                 Budget, to reinstate the recommendation. The
                                 Director of NPS should provide a plan identifying
                                 actions to be taken, target dates for implementation,
                                 and titles of officials responsible for
                                 implementation.

                                   BLM
      3           Resolved and   No further action required.
                  Implemented
      4           Resolved and   No further action required.
                  Implemented




                                      8
